                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 110080035                                                                      Page I of I



           We received a complaint that a professorl at a University2 was using funds from multiple NSF
           awards3 to make personal purchases. Investigation into the matter revealed the University was
           lacking adequate supporting documentation for specific charges in question. The University
         .
           addressed the situation conducting an internal review and eventually making proper restitution to
           NSF for all unallowable charges.4


         Accordingly, this case is closed.




NSF OlG Fonn 2 (11/02)
